U.S. DEPARTMENT OF COMMERCE
         Office of Inspector General




             PUBLIC
            RELEASE


         BUREAU OF THE CENSUS

               Internal Controls Over Denver
          Bankcard Purchases Need Improving


    Audit Report No. DEN-11030-9-0001 / February 1999




                 Office of Audits, Denver Regional Office
February 1, 1999


MEMORANDUM FOR:                       Michael S. McKay
                                      Acting Associate Director for Administration
                                      Bureau of the Census



FROM:                                 George E. Ross
                                      Assistant Inspector General for Auditing

SUBJECT:                              Internal Controls Over Denver Bankcard
                                      Purchases Need Improving
                                      Final Audit Report No. DEN-11030-9-0001

This is our final report on our audit of bankcard usage at the Census Bureau’s Denver Regional
Office. The audit concluded that the Census Bureau’s Denver Regional Office needs to improve
internal control practices to assure the physical security and appropriate use of its bankcards in
order to minimize the risk of unauthorized and improper procurements.

Our complete findings and recommendations appear on pages 3 through 6. We believe that by
implementing our recommendations, Census will improve the Denver Regional Office’s
management and oversight of bankcard usage and ensure that regulations are followed, thereby
minimizing the risk of misuse.

As required by DAO 213-5, please provide us with an audit action plan within 60 days. Since the
Department’s Office of Acquisition Management has responsibility to ensure proper
procurements, the audit action plan should be coordinated with the Director of that Office and
should provide for the Director to monitor implementation of the corrective actions.

Any inquiry regarding this report should be directed to me at 202-482-4661, or William R. Suhre,
Regional Inspector General for Audits, in our Denver Regional Office, at 303-312-7650.

All correspondence should refer to the audit report number given above. We appreciate the
cooperation and courtesies extended by Census regional office staff during our audit.
U.S. Department of Commerce                                             Report No. DEN-11030-9-0001
Office of Inspector General                                                           February 1999




Introduction

In 1986, several agencies, including the Department of Commerce, conducted a pilot project to
evaluate the usage of bankcards. The pilot project was successful in identifying opportunities for
reducing administrative procurement costs. In 1989, the bankcard was made available
governmentwide through a contract administered by the General Services Administration. The
objectives of the bankcard program are to (1) reduce procurement administrative costs and
improve management by expediting and simplifying small purchases, and (2) improve internal
controls to eliminate the fraud and abuse present in other small purchase methods.

Bankcard use was facilitated by the Federal Acquisition Streamlining Act of 1994, and Executive
Order 12931, which eliminated some requirements for purchases of $2,500 or less, known as
“micro-purchases,” and encouraged agencies to move the authority to make simple purchases
from procurement offices to program offices. The General Accounting Office1 found that the use
of bankcards has skyrocketed, and “... using the purchase card has helped government agencies
achieve administrative savings and efficiencies, absorb some of the impact of staffing cuts, and
improve their abilities to fulfill their missions.” In fiscal year 1996, bankcards were used
governmentwide to make about 4 million purchases totaling more than $1.6 billion.

While use of the bankcard has been encouraged by the Federal Acquisition Streamlining Act,
Census Bureau officials must ensure that bankcard usage complies with Federal Acquisition
Regulation (FAR), and Commerce Acquisition Manual requirements. The Department’s Office
of Acquisition Management is responsible for overseeing management of the bankcard program
within Commerce, and in turn, has delegated that authority to the Heads of Contracting Offices
(HCOs). The Census Bureau HCO further delegated purchasing authority to local approving
officials and individual cardholders. HCOs, approving officials, and cardholders all have
responsibilities to ensure that the bankcard program is properly administered.

Purpose and Scope of Audit

We conducted the audit to determine whether the Census Bureau’s Denver Regional Office was
utilizing its bankcards in accordance with FAR, Part 13, “Simplified Acquisition Procedures,” and
the Commerce Acquisition Manual, Part 13, “Commerce Purchase Card Procedures.”

Our audit covered fiscal year 1997 during which time four regional office cardholders using the
bankcard purchased 166 items totaling $20,772. There were no single transactions over $2,500,
and only two transactions over $1,000. We reviewed the two transactions over $1,000, and a
sample of transactions from each fiscal year 1997 cardholder. This sample methodology resulted
in testing a selection of 31 of the 166 transactions, or 19 percent. We reviewed applicable
regulations, policies, and procedures, examined documentation, management reports, and records,
and interviewed six of the seven current cardholders, and other officials as deemed



       1
        GAO report number GAO/NSIAD-96-138, Acquisition Reform, August 1996.

                                                -2-
U.S. Department of Commerce                                             Report No. DEN-11030-9-0001
Office of Inspector General                                                           February 1999



necessary. We also reviewed the monthly management reports on bankcard usage prepared by
the Commerce BankCard Center. We conducted our audit fieldwork in June 1998, and
performed additional fieldwork in July 1998 subsequent to our exit conference on June 11, 1998.

We reviewed administrative and accounting internal controls relating to the Denver Regional
Office’s use of the bankcard, including controls over the physical security and authorized use of
the bankcards, and the approval, ordering, and receipt of purchased items. We found that the
regional office needs to improve internal control practices as discussed in the “Results of Audit”
section of this report. As a result, we could not rely on the regional office’s controls in
developing our audit approach. Consequently, we conducted additional testing to achieve our
audit objective of determining whether the office complied with the applicable regulations.

In conducting our audit, we relied on computer-processed data. We tested the accuracy of the
data by tracing it to original source documents and by comparing it to data in other documents.
Based on our tests, we concluded that the data was sufficiently reliable for use in meeting our
objectives.

We also evaluated the regional office’s compliance with laws and regulations applicable to the use
of government bankcards. We identified FAR, Part 13, and the Commerce Acquisition Manual,
Part 13, as the applicable regulations. We found that the regional office was not in compliance
with certain requirements. The noncompliance was deemed material and is detailed in the
“Results of Audit” section of this report.

Our audit was conducted in accordance with generally accepted government auditing standards,
and was performed under the authority of the Inspector General Act of 1978, as amended, and
Department Organization Order 10-13, dated May 22, 1980, as amended.

Results of Audit

The Denver Regional Office did not have an annual review of bankcard activity by an HCO in
fiscal year 1997, bankcards were not secured, and purchases were made by unauthorized
bankcard users. We also found failure to complete mandatory training, purchases of a prohibited
item, lack of required preapproval before purchases, cardholder accounts not properly closed, and
inadequate retention of records. As a result, the regional office is at risk for procurements that
are unauthorized and improper.

Annual Review of Bankcard Activity by HCO Not Performed

Commerce Acquisition Manual, Part 13, Chapter 1, Item 6 c.(1) and (4), charges HCOs with the
responsibility of “... managing the Purchase Card Program within their service areas,” and
“... reviewing the Purchase Card Program at least once a year to ensure that cardholders and
cardholder approving officials use internal controls and follow proper procedures.” Although the
Census Acquisition and Security Division, Purchase Card Coordinator, performed an annual
review of its 254 cardholders for fiscal year 1997, bankcard activity at the Denver Regional Office
was not specifically reviewed by an HCO for fiscal year 1997. The HCO and the Denver

                                                -3-
U.S. Department of Commerce                                             Report No. DEN-11030-9-0001
Office of Inspector General                                                           February 1999



Regional Director were both new to their positions in 1998, and neither knew when the regional
office was last reviewed by an HCO. The HCO review is an important internal control technique
in the detection and prevention of problems such as those discussed in the following subsections.

Bankcards Not Maintained in Secure Location

We made an unannounced visit to the Denver Regional Office and found that six of the seven
bankcards were not maintained in a secure location, and only one bankcard was locked up on site.
According to the Manual, Part 13, Chapter 1, Item 8 c.(10), cardholders must “Keep the
Purchase Card in a secure place.” A lack of proper security measures places the regional office at
risk for unauthorized use and improper purchases.

Unauthorized Card Use Identified

A regional office cardholder violated Commerce regulations by allowing two unauthorized
employees to use a bankcard on at least four occasions. The Manual, Part 13, Chapter 1,
Item 8 c.(1), states that “Cards may not be used by any person other than the person designated
on the card.” Furthermore, the two unauthorized persons who purchased goods were also
responsible for the receipt of goods, which violates internal control practices.

Required Training Not Completed

One bank cardholder had not viewed the mandatory training videotape, and another cardholder
who has had a bankcard for three years, viewed the training videotape only once since receiving
his card. This training is essential to educate cardholders as to the proper use of the bankcard and
is required by the Manual, Part 13, Chapter 1, Item 7 b.(4), which states that “HCOs shall ensure
cardholders and cardholder approving officials review these procedures and view the training
video once every two years.” Also, Item 7 b.(1) of the Manual states, “HCOs should provide
cardholders and cardholder approving officials with information and basic instructions on how to
use the purchase card. HCOs may require cardholders and cardholder approving officials to take
additional training.”

Purchases of Prohibited Item Noted

We reviewed a sample of purchase transactions for fiscal year 1997, and found that most
purchases were for allowable items and had adequate supporting documentation. However,
prohibited telecommunication services for each month of fiscal year 1997 were charged to a
bankcard. The cardholder was unaware that telecommunication services are prohibited by the
Manual, Item 10 c., except in instances of short-term or occasional use. Long-term tele-
communication services should be acquired using standard acquisition methods.




                                                -4-
U.S. Department of Commerce                                             Report No. DEN-11030-9-0001
Office of Inspector General                                                           February 1999



Purchases Not Preapproved

The regional office cardholders did not obtain the required approval before orders were placed for
the 31 purchase transactions we examined. The Regional Director stated that cardholders are not
required to seek preapproval for routine, everyday purchases, and she verbally preapproves only
purchases of an unusual nature. Procurement Memorandum 95-23, issued by the Department’s
Chief Financial Officer on August 9, 1995, states “Cardholders are now required to obtain prior
approval from their supervisor or cardholder approving official before making any purchase.”
The required approval need not be administratively burdensome, and an electronic e-mail message
or other informal written approval is adequate.

Cardholder Accounts Not Properly Closed

The regional office did not ensure that cardholder accounts were properly closed when
cardholders left the office. According to the Manual, Part 13, Chapter 1, Item 8 b.(8),
“... approving officials must ensure that accounts are properly closed, especially when cardholders
leave the Department. This includes accounts for cardholders who resign, retire,
or who are terminated and leave the Department before the billing cycle has ended. In addition,
cardholder approving officials must coordinate finalizing these accounts with the servicing finance
office.”

Records Not Properly Retained

Most of the bankcard purchase records for fiscal year 1997 were readily available for our review;
however, several records for one bank cardholder who made purchases in fiscal year 1997
and later left the regional office, could not be located. According to the Manual, Part 13, Chapter
1, Item 19, “Purchase card records must be retained for 24 months after the end of the fiscal year
in which the transaction occurred.”

Recommendations

We recommend that the Census Bureau’s HCO ensure that effective internal control procedures
are implemented and followed by the Denver Regional Office. The HCO should monitor the
effectiveness of the internal control procedures by:

(1)    Completing timely reviews of the office’s procurements;

(2)    Performing a review of the Regional office’s bankcard activity as part of its annual review
       of the Purchase Card Program. The review should be completed between 6 and 18
       months from the date of this report, and the OIG should be provided the results of the
       review; and




                                                -5-
U.S. Department of Commerce                                              Report No. DEN-11030-9-0001
Office of Inspector General                                                            February 1999



(3)    Ensuring that:

         !     bankcards are physically secure,
         !     bankcards are used only by authorized employees,
         !     cardholders complete required training,
         !     bankcards are used only for purchasing allowable items,
         !     all purchases have documented prior approvals,
         !     bankcard accounts are properly closed, and
         !     purchase transaction records are properly retained.

Census Response

The Census Bureau partially agreed with the draft audit report recommendations. The Bureau
stated that it will provide instructions to cardholders on the physical security of bankcards,
authorized usage, training requirements, purchase of allowable items, documentation of prior
approvals, and proper retention of records. In addition, approving officials will be instructed on
proper closing of cardholder accounts. The Bureau also stated that bankcard activity is reviewed
and monitored through the Bankcard Information System (BCIS). BCIS provides the ability to
view any or all transactions as deemed necessary. Usage of BCIS is mandatory for all
cardholders, and provides the administrative ability to monitor bankcard activity in a cost effective
manner to ensure that the Bureau’s overall bankcard program is managed properly. A review of
the bankcard program is performed on an annual basis for transactions across the Bureau. The
Bureau stated that it will conduct a random sampling of transactions for Headquarters as well as
each regional office. A copy of the Census Bureau’s response is included as Appendix I.

OIG Comments

We appreciate the Census Bureau’s positive response to provide instructions to its cardholders
and approving officials to ensure that effective internal control procedures are implemented and
followed by the Denver Regional Office. However, in addition to the Bureau’s planned
instruction to its cardholders and approving officials, a follow-up review is necessary to ensure
that the Denver Regional Office has implemented the appropriate procedures. Therefore, we
reaffirm our recommendation that the Bureau’s HCO perform the required annual review of the
Denver Regional Office’s bankcard activity. In addition, we have modified the draft report
recommendation to provide for specific time frames for the review and to request that the OIG be
provided the results of the review.


cc:    Susan A. Lavin, Denver Regional Director, Bureau of the Census
       Wesley Dias, Audit Liaison Officer, Bureau of the Census




                                                 -6-
